03-1019 - Creamer v. Laidlaw Transit Inc. -10/02/2003

'2/3/2021

| Keyword | Case | Pocket | Date: Filed / Added |

^Pri4470bvtes1

^>RTF (9602bYtes)

jjMMMBBBgllp

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

MARJORIE A. CREAMER,
No. 03-1019

Plaintiff-Appellant,

(D.C. No. 92-S-1673)

v.

(D. Colo.)

LAIDLAW TRANSIT, INC.,
Defendant-Appellee.
ORDER AND JUDGMENT^

Before MURPHY and PORFILIO, Circuit Judges, and BRORBY, Senior Circuit Judge.
After examining the briefs and appellate record, this panel has detepnmed
would not materially assist the determination of this appeal. See Fed. R. App. P. 34(a)(2), 10th Cir.

.

• ( )■

The case is therefore ordered submitted without oral argument.

Creamer filed a pro se motion in the distnct court styled "Plaintiff Motion to Reopen "****“£
Documents to Support and Add to the Archives." The distnct court demed Ms. Creamer s motion, and
appeal followed. We affirm.
We construe Ms. Creamer's motion as one filed under Fed. R. Civ. ;P. 60(b)(6;) andmerdewTts W1 for abuse of
loreC^e LaFleur v. Teen Help, Nos. 02-4160, 02-4161, 02-4177, 2003 WL 22052834, at *6 (10th Cm
Sept. 3, 2003)P-

decision is wrong." Yapp v. Excel Corp., 186 F.3d 1222, 1232 (10th Cm 1999) (quotations and citations omitted).

and charges the trial judge with bias and criminal libel.

_

«

D
1/2

03-1019 - Creamer v. Laidlaw Transit Inc. - 10/02/2003

2/3/2021

As noted above, we have already affirmed the district court’s judgment against Ms. Creamer on the merits of her
claim against Laidlaw. See Creamer, 86 F.3d at 172. In doing so, we rejected Ms. Creamer's argument that a
Ms. Danford should have been allowed to testify. Id. at 171. Any argument regarding another potential witness
could presumably have been raised on direct appeal. Ms. Creamer]s untimely contention now falls far short of
the exceptional circumstance required for relief under Rule 60(b)(6). Because there is no showing as to how this
potential witness's testimony would have changed the outcome of her case, Ms. Creamer's charges of attorney
conflict similarly fail to support the right to such relief. Ms. Creamer did not raise the issue of judicial bias or
libel in the motion to the district court. We will thus not address it on appeal. See Walker v. Mather (In re
Walker), 959 F.2d 894, 896 (10th Cir. 1992).
We find no abuse of discretion in the district court’s denial of Ms. Creamer's Rule 60(b)(6) motion. The
judgment of die district court is therefore AFFIRMED. Ms. Creamer’s motion for leave to proceed without
prepayment of costs or fees, as well as her motions for sanctions and for oral argument are DENIED.
Entered for the Court
Michael R. Murphy
Circuit Judge
FOOTNOTES
Click footnote number to return to corresponding location in the text.

1. This order and judgment is not binding precedent, except under 'the doctrines of law of the case res judicata^
and collateral estoppel. The court generally disfavors the citation pf orders and judgments; nevertheless, an order
and judgment may be cited under die terms and conditions of 10th Cir. R. 36.3.
L Ms. Creamer's motion was untimely if she intended to file pursuant to Rules 60(b)(1), (b)(2), or (b)(3) because
those motions must be made no more than one year after the judgment. Rules 60(b)(4) and (b)(5) do not apply
here.
I Keyword | Case | Docket I Date: Filed / Added I i§^pil4470b)teQ.
Comments to: WebMaster. calO [at] washbumlaw.edu.
Updated: October 3, 2003.
HTML markup © 2003, Washburn University School ofLaw.
URL: http://cal0.washbumlaw.edu/cases/2003/10/03-1019.htm.

2/2

w
IN the united states district court
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION 1

MARJORIE CREAMER:
Plaintiff,
vs.

)
)

) Case No. 16-0816-CV-W-FJG
)

' DON EBERT, Kansas City Police Officer,)
)
Defendant
ORDER

Pending before the Court is Defendant Eberfs Motion to Dismiss (Doc. No. 8).
Defendant Ebert argues that plaintiffs pro se complaint does not state a claim against
him for violating plaintiffs rights under the Americans with Disabilities Act (“ADA”), nor
has plaintiff specified which of her civil rights allegedly were violated by Defendant
Ebert.

Although plaintiffs pro se complaint is not a mod^pf clarity, the Court believes
that plaintiff has sufficiently pled facts supporting a Section 1983 claim for excessive
force1 and a state law claim for false arrest.2

-

j

1 The elements of an excessive force claim are: (1) the defendant pinned P!air®
against a fence and/or kneed her in the back when arresting or stopping her; (2) the
force used was excessive because it was not reasonably necessary to arrest or stop
plaintiff; and (3) as a direct result, the plaintiff was injured. Model Civ. Jury lnst5. 8th Ur.
4.40 (2013) (as modified using the facts pled by plaintiff).
2 “A plaintiff has a cause of action for false arrest if the* plaintiff is confined, without legal
justification." Rankin v. Venator Group Retail, Inc., 93 $.W.3d 814, 819 (Mo-App.
E.D.2002). THhere are only two elements: restraint of the plaintiff against his will, an
the unlawfulness of that restraint.” Bramon v. U-Hauli;in^945 SjW.2d 676, 680

Case 4:16-cv-00816-FJG Document 16 Filed 04/20/17 Page 1 of 2

Accordingly, defendant’s motion to dismiss (Doc. No. 8) is DENIED.
IT IS SO ORDERED.

S/ FERNANDO J. GAITAN. JR.
Fernando J. Gaitan, Jr.
United States District Judge

Date: April 20. 2017
Kansas City, Missouri

!

\\

*

i

(Mo.App. ED.1997).

a
Case 4:16-cv-00816-FJG Document 16 Filed 04/20/17 Page 2 of 2

ir
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MISSOURI
WESTERN DIVISION
)
)
) Case No. 16-0,816-CV-W-FJG'

MARJORIE CREAMER:
Plaintiff,
vs.

)
DON EBERT, Kansas City Police Officer,)
Defendant
'
ORDER
Court is Plaintiffs Application for Appointment of Counsel
Pending before the
(D0C’ HaW has requested appointment of counsel. .Although a civil litigant does not

**

a constitutional or statutory right to a court-appointed attorney, the distort court may
have

\A/iqqins v. Sargent, 753 F.2d 663, 668 (
make such an appointment at its discretion
Clr 1985) ■ T8e appointment of counsel -'should be given serious consideration . if the
p„,„« h,s no, I*,* • — ot m.lici.u. 01.W- .oO

pleadings

, P™

, 801 F.2d 1040, 1043 (8th Cir. 1986)(quoting Nelsonv^fieM
facie case. In re Lane
The Court must also consider
i ithnnraph Printing., 728 F.2d 1003, 1005 (8 Cir. 1984p)
and plaintiffs need for an attorney, id.
plaintiffs’ inability to obtain counsel on his own
the following,
plaintiffs' need for counsel should focus on
The inquiry regarding i
non-exclusive factors: (1) the factus
facts and present the claim; and (3) the e>dstence of conflicting
to investigate the
testimony, ick at 1043-44.
The Court is unconvinced that plaintiff should be appointed counsel at toe stage o
the Court notes that plaintiff must make “a reasonably diligent
the proceedings.

First,

effort under the circumstances to obtain counsel

* Rrarishawv Zoological Society 662

the court, found that contacting ten
F 2d 1301,1319 (9th Cir. 1981). In Bradshaw,
w, sufficient Anofter court found M if-®, onl, four ,W -uld

1
Filed 07/25/17 Page 1 of 2
Case 4:16-cv-00816-FJG Document 29

On January 8, 2018, plaintiff filed a
interrogatories Admission and a

document entitled'"Request for 1s Set

Motion to Hearing Summary Judgment,” (Doc. No. 54),

in which she stated for the first time that

“Defendants [sic] failed to request for

admission of interrogatories as plaintiff answered; numerous requests- are absurd and
are less than

central to this case’ of excessive force violation 1983. .

Plaintiff then

details what she calls an illegal action of “helmet to helmet contacf in a professional
football game, which has no
asserts that as a

apparent relationship with the present action. Plaintiff also

matter of law she has the right to a summary judgment hearing to

present a case to a judge.1 Plaintiff does

not detail which of defendants requests for

admission or interrogatories are “absurd,” and plaintiff does not discuss her failure to
provide releases for her medical records, employment records social security/disability
records, and prison records.
On January 17,.2018, defendant filed a

motion to dismiss plaintiffs complaint

with prejudice for failure to comply with this Court's Orders, pursuant to Fed . R. Civ. P.

37(b),

and in the alternative, moves to dismiss due to plaintiffs failure to attend her own

deposition and comply with defendants discovery requests, pursuant to Fed . R. Civ. P.
37(d). Defendant notes that as

of the date of filing the motion to dismiss, plaintiff had

not provided defendant with any additional discovery responses
ordered by the Court. Defense

or records releases, as

counsel notes that she has made several good faith
scheduling her deposition and

attempts to communicate with plaintiff regarding
obtaining discovery responses; however,

plaintiff has not responded to defense

%

|

counsel’s communications regarding discovery issue?.

1This assertion is incorrect as a matter of law.

Case 4:16-cv-00816-FJG

Document 62 Riled 03/01/18 Page 2 of 3

r
On January 8, 2018, plaintiff filed a document entitled' “'Request for 1st Set
interrogatories Admission and a Motion to Hearing Summary Judgment, (Doc. No. 54)
■

in which she stated for the first time that “Defendants [sic] failed to request for
admission of interrogatories as plaintiff answered; numerous requests- are absurd and
are ‘ less

than central to this case' of excessive force violation 1983. .

Plaintiff then

details what she calls an illegal action orhelmet to helmet contact” in a professional
football game, which has no apparent relationship with the present action. Plaintiff also
asserts that as a matter of law she has the right to a summary judgment hearing to
present a case to a judge, Plaintiff does not detail which of defendants requests for
admission or interrogatories are “absurd,” and plaintiff does not discuss her failure to
provide releases for her medical records, employment records, social secunty/disabiiity
records, and prison records.
On January 17, 2018 defendant filed a motion to dismiss plaintiffs complaint
with prejudice for failure to comply with this Court’s Orders, pursuant to Fed . R. Civ. P.
37(b), and in the alternative, moves to dismiss due to plaintiffs failure to attend her own
deposition and comply with defendant’s discovery requests, pursuant to Fed . R. Civ. P.
37(d). Defendant notes that as of the -date of filing the motion to dismiss, plaintiff had
not provided defendant with any additional discovery responses or records releases, as
ordered by the Court, Defense counsel notes that she has made several good faith
attempts to communicate with plaintiff regarding scheduling her deposition and
obtaining discovery responses; however, plaintiff has not responded to defense
counsel’s communications regarding discovery issues.

1 This assertion is incorrect as a matter of law.
2

Case 4:16-cv-00816-FJG Document 62 Filed 03/01/18 Page 2 of 3

Plaintiff’s response or suggestions in opposition to defendant’s motion to dismiss
* was due on or before January 31, 2018. As of the date of this Order, plaintiff has not
responded to the motion to dismiss.

.

As noted by defendant in its motion to dismiss (Doc. No. 56), under Rule 37(b), a
district court may dismiss a party’s action or claims in whole or in part if that party fails
to comply with the court’s order to provide discovery. Fed. R. Civ. P. 37(b)(2)(A).
Plaintiff was cautioned that failure to provide responses to defendant’s discovery
requests on or before January 8, 2018, may result in sanctions, up to and including
dismissal of this action, for failure to comply with Court Orders under Fed. R. Civ. P.
37(b). See Doc. No. 51. Nonetheless, as of the date of this Order, plaintiff has failed to
comply with the court’s order to respond to reasonable discovery requests, including
providing releases for plaintiffs medicai records, employment records, social
security/disability record, and prison records. Under these circumstances, the Court
finds that defendant's, motion to dismiss (Doc. No. 56) must be GRANTED, and
plaintiffs action is DISMISSED WITH PREJUDICE. All remaining motions (Doc. Nos.
52, 53, 54, 55, 57, and 60) are DENIED AS MOOT.
The Clerk’s office is directed to mail a copy of this order via first-class mail' to
plaintiff at the following address: Marjorie A. Creamer, PO Box 25164, Kansas City, MO
64119.
IT IS SO ORDERED.

Date: March 1,2018
Kansas City, Missouri

SI FERNANDO J. GAITAN,
Fernando J. Gaitan, Jr.
United States District Judge

#

-

lAnTiojdbJL (z?.
Case 4:16-cv-00816-FJG Document 62 Filed 03/01/18 Page 3 of 3

Additional material
from this filing is
available in the
Clerk's Office.

